»

{

THE SUPREME COURT OF THE UNITED STATES

Tamara Rouhi
Plaintiff/Appellant

Original Case Number: 19CV703
Original Case/Complaint/Exhibits
Filed: 3/6/19

V
Comcast
Defendant/Appellee

Appellate Court Case Number:
20-1979
A review from the US Court of
Appeals for the Fourth Circuit.
Civil Case.
Jury not requested

FILED
MAY 1 2 2021
SUPi^E^TyURT^^

PETITION FOR REVIEW & WRIT OF CERTIORARI

Adam S Caldwell

Tamara Rouhi

Davis Write Tremaine LLP

125 Fennington Circle

1919 Pennsylvania Ave. NW

Owings Mills MD 21117

Ste 800

4105228217

Washington, DC 20006

Pro Se Plaintiff'/Appellant

2029734200
Counsel for Comcast

I. ISSUES PRESENTED

1. There has been no redress of my grievance.

2. The Defendants did not make a single valid point, but still prevailed in
the case. That is unjust.

3. My rights were violated by Federal District Court of Maryland and the
US Court of Appeals for the Fourth Circuit.

4. I’d like the previously mentioned injustices to be corrected.

Z

II. PARTIES
Plaintiff/Appellant
Tamara Rouhi
125 Fennmgton Circle
Owings Mills MD 21117

Defendants/Appellees
The Defendant

Represented by

Comcast

Attorney

Management

Adam S Caldwell

Comcast Center

Davis Write Tremaine LLP

1701 John F Kennedy Blvd

1919 Pennsylvania Ave. NWjSte 800

Philadelphia, PA 19103-2838

' Washington, DC 20006 .

3

III. PREVIOUS PROCEEDINGS
The Original case (Tamara Rouhi V Comcast, Case #19CV703) was
filed at the United States District Court, District of Maryland, Baltimore,
on 3/6/19. Judgment granting the Defendant’s Motion to Dismiss was
entered on 11/27/19. Plaintiffs Motion for Reconsideration was denied on
8/14/20.
An Appeal was filed at the United States Court of Appeals for the
Fourth Circuit (Tamara Rouhi V Comcast, Case #20-1462), and “judgement”
by a clerk was entered on 12/21/20 and 1/12/21.

H

A

IV. TABLE OF CONTENTS
Section Number
I
II
III

IV
V
VI
VII
VIII
IX
X
XI
XII
XIII
XIV

XV

Section Title
COVER PAGE
ISSUES PRESENTED FOR REVIEW
PARTIES
PREVIOUS PROCEEDINGS
TABLE OF CONTENTS
TABLE OF AUTHORITIES
CITATION OF JUDGEMENTS
BASIS FOR JURISDITION
STATUTORY PROVISION
RULE 29.4 COMPLIANCE
AUTHORITIES
SUMMARY OF THE CASE
ARGUMENT
PROPOSED ORDER
POINTS AND AUTHORITIES
REPRESENTATION STATEMENT

Page Number
1
2
3

4
5
6
7
7-8

8
8
8
8-9
9-12
13
13
13

6

V. TABLE OF AUTHORITIES

Statute Title
Article III, Section 2, US
Constitution
Certiorari

Code
Article III, Section 2, US
Constitution___________
28 U.S. Code § 1254

The Civil Rights Act of
1964, title II_________
Deprivation of Rights Under Color 18 U.S. Code § 242
of Law__________________ _______
28 U.S. Code §1332
Diversity Jurisdiction

Civil Rights

Page
Number
8
8
12,13
12

7

Federal Question

28 U.S. Code §1331

7

Final decisions of district courts

28 U.S. Code §1291

8

First Amendment

12

Fraud

First Amendment.
US Constitution
18 U.S. Code § 1001

8

Harassment

MD § 3-803

8

Obstruction of Justice

18 U.S. § 1505

12,13

Supplemental Jurisdiction

28 U.S. Code § 1367

7

Thirteenth Amendment

Thirteenth Amendment,
US Constitution

12

(o

VI. CITATION OF JUDGEMENTS

Judgement in Tamara Rouhi V Comcast, Case #19CV703, U.S. District
Court, Maryland, 2020, can be found on pages 3 and 9 of Appendix I.
Memorandum is included.
Judgement in Tamara Rouhi V Comcast, Case #20-1462, U.S. Court of
Appeals, Virginia (4th Cir.), 2020, can be found on page 11 of Appendix I.
An unpublished opinion follows.

VII. BASIS FOR JURISDITION
Rule 14,E, I, is satisfied section in section III.
The Basis for Jurisdiction in Tamara Rouhi V Comcast, Case
#19CV703, US District Court, Maryland, 2020, was Diversity Jurisdiction
(28 U.S. Code §1332), Federal Question Jurisdiction (28 U.S. Code §1331)
and Supplemental Jurisdiction (28 U.S. Code §1367). I am aware that
Diversity Jurisdiction alone is not sufficient enough to have complex issue
of state law reviewed by the Federal District Court of Maryland, but the
combination of Diversity Jurisdiction and Federal Question Jurisdiction is
enough to include Supplemental Jurisdiction.
The Basis for Jurisdiction in Tamara Rouhi V Comcast, Case #20-1462,
U.S. Court of Appeals, Virginia (4th Cir.), 2020, is: The United States Court

of Appeals for the Fourth Circuit has jurisdiction over The Federal District
Courts of Maryland (28 U.S. § 1291).
The Basis for Jurisdiction in Tamara Rouhi V Comcast, Case
., US Supreme Court, DC, 20.

#

is that the United

States Supreme Court has jurisdiction over The United States Courts of
Appeals (Article III, Section 2 of the US Constitution).

VIII. STATUTORY PROVISION
28 U.S. § 1254 states that judgments in the US Court of Appeals may
be reviewed by the US Supreme Court by getting a Writ of Certiorari
granted.

IX. RULE 29.4 COMPLIANCE
Service under this subsection does not apply to this case.
X. AUTHORITIES
Rule 14 F is satified in section V and Appendix II.

XI. SUMMARY OF THE CASE
Rule 14 G II is satified in section VII.
“While being a Comcast customer, I have been the victim of
harassment and fraud. Comcast constantly overcharged me by
changing the price of my service package and adding random fees to my
account without agreement. They wasted a lot of my time, and created
a lot of undue stress and hardship. I am extremely angry about the way
that I have been treated, and I would like to be compensated for being
the victim of these malicious practices.”
%

Ji

f

Above is an extract from the Original Complaint. None of the
facts/claims in it have been disputed as false by the courts, yet
judgement was still made in favor of the Defendant.
Additionally, any claims of insufficiency regarding the legal process
of the plaintiff were lies. The outcome of this case was clearly unjust.

XII. ARGUMENT
My petition should be granted because the previous courts have so far
departed from the accepted and usual course of judicial proceedings that
someone must step in and correct their clear errors.
The United States District Court of Maryland
My issues with the District Court of Maryland (Baltimore) started
right after filing my complaint, when the judge rejected my Summons and
ordered that I submit a new one (Docket Entry 2) a whole month after
filing my original documents. There was nothings wrong with the original
summons, this was simply a mean-spirited bullying tactic. Additionally, If
there was something wrong with the Original Summons, I should have
been notified in a timely manner. Additionally, the Defendant was

9

incorrectly Docketed as “Comcast Center”, but docketing errors seem to be
a norm for this court.
My second issue with the District Court of Maryland was the
judgement (Memorandum Opinion) to grant the Defendant’s Motion to
Dismiss/Compel Arbitration based on Comcast’s Terms of Service.
Comcast’s Terms of Service is not a contract, I did not have a contract
with Comcast (as far as I know), and if I did, I’d like to see the part that
states that they can charge me whatever they like for their services.
Additionally, Comcast’s Terms of Service (or any other text created by
Comcast) are not above the Rules of Civil Procedure or the US Constitution.
Civil litigation is a Constitutional right as stated in the First Amendment
of the US Constitution, however, freedom of expression is also a right, so I
cannot blame Comcast for this clear error. The enforcement of these terms ,
and the violation of my Constitutional rights, was done by the District
Court of Maryland, and it must be corrected.
The mere existence of a Terms of Service does not make it binding. If I
do not agree, I must still be provided service, as I cannot be denied access
to goods and services for non-financial reasons. Page 5 of the memorandum
(Appendix I P. 7) states that the arbitration provision “shall survive the
termination the customer’s services with Comcast” as if becoming a
Comcast customer is a lifelong commitment. Indentured slavery was

abolished in the thirteenth amendment of the US constitution, therefore, I
have rights.
The Memorandum is difficult for me to read as it was just extremely
offensive to me, but I will summarize by saying that it is full of lies and
irrelevant information, it is not based on law, and that my legal process
was sufficient.
The memorandum denying my Motion for Reconsideration was also
offensive, and no points were made. Neither memorandum contained an
actual Court Order, and neither of them were signed. These things are
required from a judge. The outcome of this case is clearly incorrect in terms
of law, and ethics. The judge was a bully, who purposely delayed relief, or
any form of justice, through corruption and lies. I have been treated
unfairly by the court, just as I was treated unfairly by the Defendant.

The United States Court of Appeals for the Fourth Circuit
The United States Court of Appeals for the Fourth Circuit was no
better than the United States District Court of Maryland. Instead of
reviewing my case, The United States Court of Appeals for the Fourth
Circuit had a clerk send me a document which said “Judgement” (Appendix
I P. 11) and close the case. I did not receive a signed order from a judge,
which I am entitled to. This is disgraceful and it is not due process.

The fraudulent judgement was accompanied by an unpublished opinion
by an unknown person that was full of fictitious or irrelevant information. I
was later sent a Mandate by the clerk that stated that their previous
judgement was now in action. I doubt my Appeal was even read by anyone
at the court house.
Conclusion
The previous Court Houses gave me the run-around, and treated me
like I did not matter. I did not contact these Court Houses to be social, I
contacted them to excersise my rights as an American and to get what is
owed to me. Although the previous Court Houses refused to honor it, the
ownership of people/slavery was abolished in the Thirteenth Amendment
of the US constitution. No one is required to socialize with these people
against their will, through deception, under the guise of justice or official
business. If the employees of these Court Houses want to play games and
hurt people, they should do so on their own time, as I am entitled to redress
of my grievances.
In addition to the defamation and abuse of a Country and a Citizen, the
previous Courts have deprived me of rights (18 U.S. Code § 242), denied me
equal access to the laws of this country (Civil Rights), violated my First
Amendment Rights (US Constitution), obstructed justice (18 U.S. § 1505)
and treated my case like a joke. These injustices must be corrected.

\2-

•

i

XIII. PROPOSED ORDER
I propose that the order state something along the lines of: The
Plaintiffs Petition for Writ of Certiorari is granted.

XIV. POINTS AND AUTHORITIES
I am entitled to equal access to the judicial system (Civil Rights), and
anything other than that is an Obstruction of Justice.

XV. REPRESENTATION STATEMENT
I, Tamara Rouhi (Pro Se), represent the Plaintiff (Appellant), Tamara
Rouhi, in the review of this case. All research and documents were done by
Tamara Rouhi, with no direct help from an attorney.

I certify, under penalty of perjury, that the information in this
document is true to the best of my knowledge.

Tamara Rouhi
Pro Se

Id

